Department of Health and Human Services

        OFFICE OF
   INSPECTOR GENERAL




  CLIENT COOPERATION WITH
 CHILD SUPPORT ENFORCEMENT
           Local Staff Experiences
          With Medicaid-Only Clients




                     JUNE GIBBS BROWN
                      Inspector General

                         APRIL 2000
                        OEI-06-98-00045
                       OFFICE OF INSPECTOR GENERAL

The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, is
to protect the integrity of the Department of Health and Human Services programs as well as
the health and welfare of beneficiaries served by them. This statutory mission is carried out
through a nationwide program of audits, investigations, inspections, sanctions, and fraud
alerts. The Inspector General informs the Secretary of program and management problems
and recommends legislative, regulatory, and operational approaches to correct them.

                          Office of Evaluation and Inspections

The Office of Evaluation and Inspections (OEI) is one of several components of the Office of
Inspector General. It conducts short-term management and program evaluations (called
inspections) that focus on issues of concern to the Department, the Congress, and the public.
The inspection reports provide findings and recommendations on the efficiency, vulnerability,
and effectiveness of departmental programs.

OEI's Region VI prepared this report under the direction of Chester B. Slaughter, Regional
Inspector General and Judith V. Tyler, Deputy Regional Inspector General.

Principal OEI staff included:

DALLAS                                           HEADQUARTERS

Blaine Collins
                                  Alan Levine, Program Specialist
Ruth Ann Dorrill
                                Joan Richardson, Program Specialist
Marnette Robertson
                              Linda Hall
Clark Thomas, Ph.D.

Nancy Watts

Lisa White


FIELD OFFICES

Lucille Cop
Vincent Greiber
Ianna Kachoris
Thomas Purvis
Graham Rawsthorn

       To obtain copies of this report, please call the Dallas Regional Office at 214-767-3310.
        Reports are also available on the World Wide Web at our home page address:

                                http://www.dhhs.gov/progorg/oei
June Gibbs Brown /s/
Inspector General

OIG Final Report: “Client Cooperation with Child Support Enforcement: Local Staff
Experiences With Medicaid-Only Clients,” OEI-06-98-00045

Olivia A. Golden
Assistant Secretary for
 Children and Families


We recently completed a series of reports which discuss the cooperation of Temporary
Assistance for Needy Families (TANF) cash assistance clients with child support
enforcement. During this inspection, we also obtained limited information about cooperation
from custodial parents who receive Medicaid coverage only. Although we did not conduct a
thorough review of this issue, the data that we did gather reveals a number of concerns which
our State and local government respondents raised regarding gaining cooperation from these
Medicaid-only clients.

SUMMARY

Workers in some child support and public assistance offices observed that the proportion of
clients in their caseload who only receive Medicaid is increasing. However, a number of
workers, as well as clients, do not understand that Medicaid clients must cooperate with child
support enforcement. Additionally, it appears that sanctions often are not applied when
Medicaid-only clients do not cooperate. Some workers also report they believe that simply
removing a custodial parent’s Medicaid eligibility is not an effective tool to encourage
cooperation, reasoning that as long as their children are covered by Medicaid, parents may
willingly forego their own medical insurance benefits rather than cooperate with child support
enforcement. Finally, local child support managers and workers expressed concern that being
held accountable for large numbers of unresolved Medicaid cases could have an adverse
effect on their performance measures and budgets.

We are aware that the Secretary has formed the Medical Child Support Working Group to
study and provide recommendations about how to improve the enforcement of medical
support obligations for children. We call these issues to your attention as your agency
continues to develop and refine policy affecting this population.




                                              1

BACKGROUND

The Personal Responsibility and Work Opportunity Reconciliation Act removed the automatic
link between eligibility for Medicaid and cash assistance, allowing families to qualify for
Medicaid even if they do not receive cash assistance under TANF. States may also expand
Medicaid coverage to additional low-income families who do not qualify for cash assistance.
Additionally, custodial parents who qualify for cash assistance but choose not to apply because
they do not want to use their time-limited eligibility can still be assured of Medicaid coverage.

Federal law continues to require that custodial parents must cooperate with the child support
enforcement agency as a condition of eligibility for Medicaid and the State Children’s Health
Insurance Program (SCHIP) when SCHIP is implemented as an expansion of a State’s
Medicaid program. This cooperation may help enforcement when noncustodial parents are
ordered to provide their children with private health insurance. Medicaid clients who fail to
cooperate with child support enforcement, unless exempted for good cause, can be penalized
through the loss of eligibility for Medicaid coverage, although Medicaid coverage of dependent
children and women who are pregnant must continue even when clients do not cooperate. The
final determination of whether a client has cooperated is made in the child support agency.
Medicaid-only clients may elect, but are not required, to receive assistance from the child
support agency in establishing and collecting monetary support. Clients are expected to notify
the agency if they do not desire this service. Regardless of whether a client accepts the child
support agency’s help in pursuing cash support, these medical assistance cases are included in
child support enforcement caseloads, potentially affecting Federal funding calculations.

METHODOLOGY

For our inspection of TANF cash assistance client cooperation, we gathered information from
local child support and public assistance offices. Managers and administrators from 99 local
child support offices and 103 local public assistance offices in six focus States - California,
Georgia, Illinois, New Jersey, Texas and Virginia - returned mail surveys regarding
cooperation policies, practices, and improvement strategies. We also reviewed agency
documents including client cooperation policy statements, standardized forms, examples of
correspondence with clients and other agencies, outreach materials, and other related
documents. Additionally, we made site visits to each of the six focus States. During the visits,
we conducted interviews with approximately 180 managers and caseworkers at local public
assistance and child support agency offices. At almost all offices, we interviewed one or more
managers, then separately interviewed two or more caseworkers experienced in client
cooperation issues. These respondents provided detailed information about how cooperation
policies are implemented, as well as the effect of cooperation requirements on office
operations, staff, and clients. Finally, we conducted telephone interviews of administrators
from each State’s child support enforcement agency and the agency responsible for each
State’s cash assistance program.



                                                2

The primary purpose of this inspection was to learn more about State policies and practices
related to cooperation of custodial parents who receive cash assistance under TANF.
However, we included questions about Medicaid-only clients in our survey instruments and on-
site interviews. The information we present below is a product of these surveys and the
interviews we conducted with managers and front line workers in local public assistance and
child support offices.

PROCESS and PRACTICES

#	     Some child support workers we interviewed report a noticeable change in their
       case-mix and workload. According to one child support worker, “Since welfare
       reform the TANF rolls have dropped, but the medical assistance [rolls] have
       increased. Medicaid-only cases still must cooperate.” A child support supervisor also
       reports, “It has changed the caseload. We are working on more Medicaid-only clients
       and fewer welfare clients.” Twenty percent of child support offices who responded to
       our survey report that at least half of the custodial parents in their caseload are
       Medicaid-only cases. They did not distinguish between clients who are also eligible for,
       but not receiving, TANF assistance and those who qualify only for Medicaid.

#	
#      Staff in focus States employ standardized forms to inform Medicaid-only clients
       of their obligation to cooperate with child support enforcement. These forms are
       typically mailed to clients whose medical support continues after their TANF case is
       closed, and are also presented to new clients as they apply for Medicaid benefits.
       Applicants and clients in our focus States must typically sign a statement indicating
       they have read and understand the cooperation requirements. The following language
       is representative of these forms:

              “Our records indicate that members of your family are receiving
              Medical Assistance Only. We will be taking appropriate action
              to obtain and enforce medical insurance coverage for these
              child(ren), if such coverage is available to the non-custodial
              parent at reasonable cost. This includes establishing paternity if
              necessary. Your cooperation in establishing paternity and/or in
              obtaining health insurance for your child(ren) is required.”

              “I understand that as a condition of eligibility for Medicaid, I
              must cooperate with the Division of Child Support Enforcement
              in establishing paternity and medical support.”




                                              3

#	     Medicaid-only clients can choose not to accept the assistance of the child support
       agency for establishing and enforcing cash support orders. The forms that clients
       receive notifying them of their cooperation obligations also typically inform them that
       they will receive services related to cash support orders unless they specifically request
       medical support enforcement only. Staff perceive that some Medicaid-only clients
       choose not to pursue cash support through the child support enforcement agency for a
       variety of reasons. These include informal support arrangements with the noncustodial
       parent and reluctance to involve the father in the life of the child. Additionally, staff
       indicate clients may be confused by the choice not to pursue cash support, and may not
       understand that they still must cooperate for purposes of medical support. Staff report
       that some clients who refuse cash support enforcement services often fail to show up
       for appointments, return phone calls, respond to notices from the child support agency,
       or provide necessary information. One child support worker explains, “The ones that
       are just on Medicaid, they think they can get out of cooperating by only covering the
       child. They sign a form saying they don’t want to request our services. But they don’t
       read the whole letter because it says that we are going to pursue medical support.
       They don’t understand that we have to establish paternity before we can establish
       medical support. And they don’t want to have paternity established.”

#	     Child support enforcement workers say they often encourage Medicaid-only
       clients to pursue cash support as well as medical support. Several workers told us
       they encourage custodial parents to pursue child support in addition to medical
       support. For example a local office manager explains, “Even if they are not interested
       in the order of child support, if they are receiving Medicaid-only . . . they've got an
       option. They don't have to receive child support payments from the noncustodial
       parent, but we try to point out the benefits of establishing paternity, and as long as
       we're going to do the order for medical support anyway, we might as well do the order
       for child support.” Another worker told us, “[With Medicaid-only cases] the main
       thing I want to know is if they want us to collect child support too. If she never
       answers me, I just go after both.”

CONCERNS

The possible change in case-mix reported by some local staff could create a number of
concerns for State child support and public assistance agencies. Workers appear to face a
greater challenge in gaining the cooperation of Medicaid-only clients than cash grant recipients,
due to misunderstanding and lack of effective sanctions. Following are concerns and issues
which local staff raised during our study.




                                               4

     CLIENT ISSUES

#	   Child support staff report that while many Medicaid-only clients readily
     cooperate, some choose not to provide information for the same reasons as TANF
     clients. In cooperating, these clients provide whatever information they have, keep
     appointments and submit to genetic testing. According to two child support workers
     we interviewed, “If the mother wants to pursue child support, she is extremely
     cooperative. Even if she does not want support right now, we establish paternity,
     which helps, because in the near future she can come back in and say ‘I want full
     child support enforcement services.’ Most of these are working moms where the
     employer does not provide medical coverage.” “Others want us to go after medical
     and cash support right away. Most Medicaid-only clients are working, and have
     income, so they just want Medicaid because their employer doesn’t offer
     [insurance].”

     Staff suggest, however, that some clients resist State involvement in their lives. In the
     experience of one child support worker, “We have a lot we are getting medical service
     for and they don’t cooperate and they don’t want any services at all from us.”
     Another child support worker suggests custodial parents do not want to jeopardize
     informal arrangements they may have with an absent parent, “[Sometimes] they've
     signed the child up for Medicaid and the parents have worked out something that
     works for them as far as the child support is concerned, and they don't want us
     messing with it.” Other clients wish to avoid contact between the child and
     noncustodial parent, as one child support worker explains, “They'll close their case
     just to keep us out of it, because they are afraid that once we get involved that it gives
     that man a right to come get that child.”

#	   Many child support and public assistance staff do not believe that removing
     custodial parents’ Medicaid coverage is an effective tool to encourage
     cooperation. Staff report that few sanctioned clients return to either the child support
     or public assistance office to provide information once they have received notice that
     they have lost Medicaid coverage. A number of workers speculate that because the
     effect of this sanction is not felt immediately, it does not provide the same incentive to
     cooperate that the loss of a portion of the cash grant does for cash assistance clients.
     According to some staff, clients may understand the need for their children to have
     Medicaid coverage but discount the value for themselves. Realizing that children
     cannot lose their Medicaid coverage regardless of a custodial parent’s failure to
     cooperate, one public assistance supervisor told us, “They have absolutely no intention
     to cooperate. You have to hit them in the pocketbook. ” A child support manager
     also says, “Unless money benefits are involved, I don't think sanctions work well to
     encourage Medicaid clients to cooperate.”




                                             5

     STAFF ISSUES

#	
#    Staff in many local offices surveyed appear not to understand that cooperation is
     a condition of Medicaid eligibility. Thirty-one percent of child support and 25
     percent of public assistance respondents erroneously reported that a custodial parent
     cannot lose Medicaid benefits for failure to cooperate. A few others responded that
     they did not know whether a client could lose coverage. A comment from one worker
     typifies the misconception that because a child cannot lose Medicaid coverage, there
     can be no sanction, “It is mostly Medicaid cases that we get, and we really can't take
     an action on a child on a Medicaid case anyway. So, we just file them away and we
     send something back saying ‘cannot sanction, Medicaid case.’ And we let child
     support know we got it but we can't do anything about it. I personally think it is a
     waste of time that they send them over here, because we can't do anything about it.”

#	   Local child support staff in focus States report Medicaid-only clients are
     sometimes not sanctioned for failing to cooperate. Of the child support enforcement
     offices responding that noncooperative clients can be sanctioned, 51 percent report
     that, in their experience, Medicaid-only clients lose their coverage less than half the
     time, and 22 percent report that clients are never sanctioned. Public assistance
     respondents agree, with 52 percent indicating that sanctions occur less than half the
     time, five percent reporting that noncooperative Medicaid-only clients are never
     sanctioned. One child support worker confirms in an interview that the public
     assistance agency frequently does not sanction noncooperative clients, “One of our
     major drawbacks is with Medicaid-only clients. The woman may or may not be
     removed from Medicaid. Quite often she's not because [the public assistance agency]
     views the sanction only as reducing the welfare grant, not as reducing Medicaid.
     They'll send back things and say ‘she's on Medicaid, I can't sanction her.’ Well [they]
     could. You could take her off Medicaid. They don't do it all the time.”

#     Some child support workers report they are often frustrated when they get little
     cooperation from Medicaid-only clients. Medicaid-only cases may be difficult to
     resolve because workers may have little initial information about the noncustodial
     parent, and experience difficulty persuading custodial parents to cooperate. However,
     workers are often expected to make much the same effort as with cash assistance cases.
     A child support worker says, “[It is a burden] because we're required, our regulations
     state that, even though it's Medicaid you have to send out an appointment [request].
     It's a waste of time. If they’re not going to do anything, I don't think we should have
     to go through the procedures. I think we should just close it, because they are not
     going to respond.”




                                            6

#	   Some child support managers are concerned that large numbers of Medicaid-only
     cases in their caseloads could adversely impact State agency and local office
     performance measures and budgets. Federal funding to State child support agencies
     is based in part on State caseload measures. While Medicaid-only cases are a part of
     this calculation, local managers in focus States argue that they are the most difficult to
     resolve and the most resource intensive. Managers report that staff are most likely to
     work the child support cases for which they have the most information and Medicaid-
     only cases often do not fall into that category. According to a child support manager,
     “To tell the truth, Medicaid-only cases tend to be a second priority to our regular
     caseloads. The collections are first. [But we are also] measured on Medicaid-only
     cases. It's a Federal guideline to meet percentages.”

#	   Some managers and workers are also concerned that, while they have fewer tools
     to encourage cooperation, employee evaluations are based in part on the number
     of cases they successfully resolve. When the proportion of Medicaid-only cases
     increases in workers’ caseloads, they worry that their overall case disposition rates will
     decline as they spend more time on what they perceive as more difficult cases. One
     public assistance worker explains, “There is little incentive for the Medicaid-only
     cases to give us information and yet they still add to our caseload. We have to work
     these cases regardless and we get docked for not having a better [success] rate.” A
     child support worker agrees, “ [Medicaid-only cases] increased our caseload
     considerably. Without an increase in staffing, it increased our backlog. We count the
     backlog in our office every month.”




                                             7

OPPORTUNITIES FOR IMPROVEMENT

Our findings highlight a number of potential concerns regarding Medicaid-only client
cooperation with child support enforcement. We believe it will be useful to consider these
findings along with the findings and recommendations of the Secretary's Medical Child Support
Working Group.

Further study is warranted before developing specific corrective action, but our limited
research led us to a number of potential solutions. Summarily, encouraging Medicaid-only
client cooperation appears to depend primarily on ensuring staff and client understanding, and
promoting use of appropriate sanctions. To address problems of workers not understanding or
enforcing the requirement that Medicaid-only clients cooperate with child support
enforcement, the Administration for Children and Families (ACF) may, in collaboration with
the Health Care Financing Administration, wish to:

       Provide additional technical assistance and encouragement to State and local partners
       to provide additional training to ensure that agency workers and clients understand
       their responsibilities and expectations under existing policy, and

       Continue to develop new policy or refine and issue promising pending rules which
       encourage collaboration between child support enforcement and those agencies
       responsible for cash and medical assistance to ensure that as many children as possible
       continue to receive or obtain appropriate medical coverage.

To address problems with caseload management and performance indicators, ACF may
consider further evaluation of staff and program performance structures, and revision of
Medicaid-only case closure criteria.

AGENCY COMMENTS

The ACF agreed to help States with our suggestion of ensuring that agency workers and
clients understand their expectations and responsibilities under existing policy. They also plan
to consider new policies when the Medical Child Support Working Group issues its
recommendations this Spring.

The ACF provided several general and technical comments which we have addressed in the
report as appropriate. The ACF comments are provided in their entirety in Appendix A.




                                                8

APPENDIX A





 )))))))))))Ê
     A - 1

)))))))))))Ê
    A - 2

